Certificate of Service
I, James M. Whisman, a member of the bar of the Court, hereby certify that, on this 22nd day
of October 2020, all parties required to be served have been served copies of the Brief in Opposition
in Washington v. Keith Davis, in the Supreme Court of the United States case number 20-5379, the
following participants:
Attorneys for Petitioner
David Bruce Koch
kochd@nwattorney.net
Counsel of Record Nielsen Koch, PLLC
1908 E. Madison St.
Seattle, WA 98122
206-623-2373
Amicus name: Cato Institute
Matthew Theodore Martens
matthew.martens@wilmerhale.com
Counsel of Record Wilmer Hale
1875 Pennsylvania Avenue, NW
Washington, DC 20006
202-663-6000
Amicus name: National Association of Criminal Defense Lawyers
Jeffrey T. Green
jgreen@sidley.com
Counsel of Record Sidley Austin
1501 K Street, NW
Washington, DC 20005
202-736-8291
I certify under penalty of perjury of the laws of the state of Washington that the foregoing is
true and correct.

Name: James M. Whisman
Date: 10/22/2020
Done in Seattle, Washington

